                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report
Subject:

         Audit of the Federal Employees Health Benefits
         Program Operations at GHI HMO Select, Inc.



                                           Report No. 1C-X4-00-12-011

                                          Date: _______________
                                                September 13,2012




                                                      -- CAUTION --
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                     AUDIT REPORT



                                   Federal Employees Health Benefits Program
                                Community-Rated Health Maintenance Organization
                                             GHI HMO Select, Inc.
                                    Contract Number CS 2655 - Plan Code X4
                                             New York, New York



                 Report No. 1C-X4-00-12-011                                           Date:       September 13, 2012




                                                                                      Michael R. Esser
                                                                                      Assistant Inspector General
                                                                                        for Audits
                                                      -- CAUTION --
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                               EXECUTIVE SUMMARY




                      Federal Employees Health Benefits Program
                   Community-Rated Health Maintenance Organization
                                GHI HMO Select, Inc.
                       Contract Number CS 2655 - Plan Code X4
                                New York, New York


         Report No. 1C-X4-00-12-011                   Date: September 13, 2012


The Office of the Inspector General performed an audit of the Federal Employees Health
Benefits Program (FEHBP) operations at GHI HMO Select, Inc. – plan code X4 (Plan). The
audit covered contract years 2007, 2008, 2010, and 2011, and was conducted at the Plan’s office
in New York, New York.

This report questions $264,262 for inappropriate health benefit charges to the FEHBP in contract
years 2007, 2008, 2010, and 2011. The questioned amount includes $236,459 for defective
pricing and $27,803 due the FEHBP for lost investment income, calculated through August 31,
2012.

For contract year 2007, we determined that the FEHBP’s rates were overstated by $76,994 due to
defective pricing. The Plan did not properly credit the FEHBP for the Graduate Medical
Expense (GME) charge. In addition, the Plan did not provide sufficient support to show that the
FEHBP was not charged state premium taxes. Also, the Plan did not apply the highest SSSG
discount to the FEHBP’s rates.

For contract year 2008, we determined that the FEHBP’s rates were overstated by $49,541 due to
defective pricing. The Plan did not properly credit the FEHBP for the GME charge. Also, the
                                               i
Plan did not provide sufficient support to show that the FEHBP was not charged state premium
taxes.

For contract years 2010 and 2011, we determined that the FEHBP’s rates were overstated by
$82,712 and $27,212, respectively, due to defective pricing. More specifically, the Plan did not
properly credit the FEHBP for the GME charge.

Consistent with the FEHBP regulations and contract, the FEHBP is due $27,803 for lost
investment income, calculated through August 31, 2012, on the defective pricing findings. In
addition, we recommend that the contracting officer recover lost investment income starting
September 1, 2012, until all defective pricing amounts have been returned to the FEHBP.




                                                ii
                                     CONTENTS

                                                                                   Page

  EXECUTIVE SUMMARY………………………………………………………………...i

I. INTRODUCTION AND BACKGROUND………………………………………………..1

II. OBJECTIVES, SCOPE, AND METHODOLOGY……………….……………………….3

III. AUDIT FINDINGS AND RECOMMENDATIONS……………………………………...5

   Premium Rate Review……………………………………………………………………..5

   1. Defective Pricing………………………………………………………………………..5

   2. Lost Investment Income………………………………………………………………...7

IV. MAJOR CONTRIBUTORS TO THIS REPORT………………………………………….8

   Exhibit A (Summary of Questioned Costs)

   Exhibit B (Defective Pricing Questioned Costs)

   Exhibit C (Lost Investment Income)

   Appendix (GHI HMO Select, Inc.’s July 31, 2012, response to the draft report)
The Plan has participated in the FEHBP since 1993 and provides health benefits to FEHBP
members throughout New York’s Albany - Capital District and Hudson Valley areas. The last
audit of the Plan conducted by our office was a rate reconciliation audit for contract year 2009.
There were no issues identified in that audit.

The preliminary results of this audit were discussed with Plan officials at an exit conference and
in subsequent correspondence. A draft report was also provided to the Plan for review and
comment. The Plan’s comments were considered in preparation of this report and included, as
appropriate, in the Appendix.




                                                 2
                II. OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The primary objectives of the audit were to verify that the Plan offered market price rates to the
FEHBP and to verify that the loadings to the FEHBP rates were reasonable and equitable.
Additional tests were performed to determine whether the Plan was in compliance with the
provisions of the laws and regulations governing the FEHBP.

Scope
                                                                     FEHBP Premiums Paid to Plan

We conducted this performance audit in
accordance with generally accepted government                        $3

auditing standards. Those standards require that



                                                      Millions
we plan and perform the audit to obtain                              $2
sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions                    $1
based on our audit objectives. We believe that
the evidence obtained provides a reasonable                          $0
basis for our findings and conclusions based on                            2007    2008    2010    2011
                                                                 Revenue   $2.4    $2.3    $2.1    $1.0
our audit objectives.

This performance audit covered contract years
2007, 2008, 2010, and 2011. For these contract years, the FEHBP paid approximately $7.8
million in premiums to the Plan. The premiums paid for each contract year audited are shown on
the chart above.

OIG audits of community-rated carriers are designed to test carrier compliance with the FEHBP
contract, applicable laws and regulations, and OPM rate instructions. These audits are also
designed to provide reasonable assurance of detecting errors, irregularities, and illegal acts.

We obtained an understanding of the Plan’s internal control structure, but we did not use this
information to determine the nature, timing, and extent of our audit procedures. However, the
audit included such tests of the Plan’s rating system and such other auditing procedures
considered necessary under the circumstances. Our review of internal controls was limited to the
procedures the Plan has in place to ensure that:

        • The appropriate similarly sized subscriber groups (SSSG) were selected;

        • the rates charged to the FEHBP were the market price rates (i.e., equivalent to the best
          rate offered to the SSSGs); and

        • the loadings to the FEHBP rates were reasonable and equitable.

In conducting the audit, we relied to varying degrees on computer-generated billing, enrollment,
and claims data provided by the Plan. We did not verify the reliability of the data generated by
                                                 3
the various information systems involved. However, nothing came to our attention during our
audit testing utilizing the computer-generated data to cause us to doubt its reliability. We believe
that the available data was sufficient to achieve our audit objectives. Except as noted above, the
audit was conducted in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States.

The audit fieldwork was performed at the Plan’s office in New York, New York during
December 2011. Additional audit work was completed at our offices in Cranberry Township,
Pennsylvania; Jacksonville, Florida; and Washington, D.C.

Methodology

We examined the Plan’s Federal rate submissions and related documents as a basis for validating
the market price rates. In addition, we examined the rate development documentation and
billings to other groups, such as the SSSGs, to determine if the market price was actually charged
to the FEHBP. Finally, we used the contract, the Federal Employees Health Benefits Acquisition
Regulations, and OPM’s Rate Instructions to Community-Rated Carriers to determine the
propriety of the FEHBP premiums and the reasonableness and acceptability of the Plan’s rating
system.

To gain an understanding of the internal controls in the Plan’s rating system, we reviewed the
Plan’s rating system policies and procedures, interviewed appropriate Plan officials, and
performed other auditing procedures necessary to meet our audit objectives.




                                                 4
2. Lost Investment Income                                                                    $27,803

  In accordance with the FEHBP regulations and the contract between OPM and the Plan, the
  FEHBP is entitled to recover lost investment income on the defective pricing finding in
  contract years 2007, 2008, 2010, and 2011. We determined that the FEHBP is due $27,803
  for lost investment income, calculated through August 31, 2012 (see Exhibit C). In addition,
  the FEHBP is entitled to lost investment income for the period beginning September 1, 2012,
  until all defective pricing finding amounts have been returned to the FEHBP.

  FEHBAR 1652.215-70 provides that if any rate established in connection with the FEHBP
  contract was increased because the carrier furnished cost or pricing data that were not
  complete, accurate, or current as certified in its Certificate of Accurate Pricing, the rate shall
  be reduced by the amount of the overcharge caused by the defective data. In addition, when
  the rates are reduced due to defective pricing, the regulation states that the government is
  entitled to a refund and simple interest on the amount of the overcharge from the date the
  overcharge was paid to the carrier until the overcharge is liquidated.

  Our calculation of lost investment income is based on the United States Department of the
  Treasury's semiannual cost of capital rates.

  Recommendation 2

  We recommend that the contracting officer require the Plan to return $27,803 to the FEHBP
  for lost investment income for the period January 1, 2007, through August 31, 2012. In
  addition, we recommend that the contracting officer recover lost investment income on
  amounts due for the period beginning September 1, 2012, until all defective pricing amounts
  have been returned to the FEHBP.

  Plan’s Comments (see Appendix):

  The Plan did not comment on this finding.




                                                  7
            IV. MAJOR CONTRIBUTORS TO THIS REPORT

Community-Rated Audits Group

                  , Auditor-In-Charge

                  Lead Auditor

                    Auditor



                  Chief

               , Senior Team Leader




                                        8
                                                                   Exhibit A


                  GHI HMO Select, Inc. - Plan Code X4
                    Summary of Questioned Costs

Defective Pricing Questioned Costs:

       Contract Year 2007                                $76,994
       Contract Year 2008                                $49,541
       Contract Year 2010                                $82,712
       Contract Year 2011                                $27,212
         Total Defective Pricing Questioned Costs       $236,459

Lost Investment Income                                   $27,803

Total Questioned Costs                                  $264,262
                                                                                  Exhibit B
                                                                                  Page 1 of 2

                                   GHI HMO Select, Inc. - Plan Code X4
                                    Defective Pricing Questioned Costs


Contract Year 2007 - High Option
                                                      Self               Family
Plan's Proposed Rates
Audited Line 5 Rates

Bi-weekly Overcharge

To Annualize:
March 31, 2007 Enrollment
x 26 Pay Periods                                      26                  26
Subtotal

Amount Due FEHBP in 2007 - High Option                                             $45,580

Contract Year 2007 - Standard Option
                                                      Self               Family
Plan's Reconciled Rates
Audited Line 5 Rates

Bi-weekly Overcharge

To Annualize:
March 31, 2007 Enrollment
x 26 Pay Periods                                      26                  26
Subtotal

Amount Due FEHBP in 2007 - Standard Option                                         $31,414

Contract Year 2008
                                                      Self               Family
Plan's Reconciled Rates
Audited Line 5 Rates

Bi-weekly Overcharge

To Annualize:
March 31, 2008 Enrollment
x 26 Pay Periods                                      26                  26
Subtotal

Amount Due FEHBP in 2008                                                           $49,541
                                                                                    Exhibit B
                                                                                    Page 2 of 2

                                     GHI HMO Select, Inc. - Plan Code X4
                                      Defective Pricing Questioned Costs


Contract Year 2010
                                                        Self               Family
Plan's Reconciled Rates
Audited Line 5 Rates

Bi-weekly Overcharge

To Annualize:
March 31, 2010 Enrollment
x 26 Pay Periods                                        26                  26
Subtotal

Amount Due FEHBP in 2010                                                             $82,712

Contract Year 2011
                                                        Self               Family
Plan's Reconciled Rates
Audited Line 5 Rates

Bi-weekly Overcharge

To Annualize:
March 31, 2011 Enrollment
x 26 Pay Periods                                        26                  26
Subtotal

Amount Due FEHBP in 2011                                                             $27,212


Total Defective Pricing Questioned Costs                                            $236,459
